CERTIFICATE OF WORD COUNT
NO. 19-100
Crown Asset Management, LLC,
Petitioner(s),
v.
Mary Barbato,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the MARY BARBATO BRIEF IN
OPPOSITION contains 6621 words, including the parts of the brief that are required or exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
August 27, 2019

SCP Tracking: Edelman-20 South Clark Street-Cover Orange

